                      SPECTO
                 IN            R
             F                     G
         O                             E

     E




                                       N
 C




                                           E
FI




                                           RA
OF




                                               L
The Export-Import Bank of the United States (Ex-Im
Bank/Bank) is the official export credit agency of the United States. The mission
of the Bank is to assist in financing the export of U.S. goods and services to
international markets. Ex-Im Bank enables U.S. companies — large and small
— to turn export opportunities into sales that helps to maintain and create U.S.
jobs and contribute to a stronger national economy. In fiscal year 2009, the Bank
authorized transactions totaling $21 billion. Ex-Im Bank is an independent
executive agency and a wholly owned U.S. government corporation that is
celebrating 75 years of service to the nation in 2009. Information about the Bank
is available at www.exim.gov.

The Office of lnspector General (OIG) was organized in 2007 as an
independent office within Ex-Im Bank to support its mission and goals by
detecting and responding to fraud, waste, and abuse involving Ex-Im Bank
programs and personnel and to promote economy and efficiency in operations.
The Inspector General Act of 1978 charges the Inspector General with
responsibility for conducting audits, inspections, and investigations. The
Inspector General keeps the Chairman of Ex-Im Bank and Congress fully and
currently informed about problems and deficiencies relating to the administration
of Ex-Im Bank programs and operations.

Online Availability – reports of OIG audits, evaluations, and other
activities are available at www.exim.gov/oig. Information about the
responsibilities of Inspectors General across the U.S. government can be found
at www.ignet.gov.

Additional Copies – for additional copies of this report or those from prior
periods, write:

Office of Inspector General
Export-Import Bank of the United States
811 Vermont Ave. N.W.
Washington D.C. 20571

Or call: (202) 565-3908
MICHAEL W. TANKERSLEY                EXPORT-IMPORT BANK
INSPECTOR GENERAL                    OF THE UNITED STATES


    Fred P. Hochberg
    Chairman
    Export-Import Bank of the U.S.
    811 Vermont Avenue, N.W.
    Washington, DC 20571

    Dear Chairman Hochberg:

    This Semiannual Report to Congress of the Office of Inspector General (OIG) of the Export-
    Import Bank of the United States (Ex-Im Bank) summarizes the work of the OIG during the
    reporting period of April 1, 2009 to September 30, 2009. During this time, OIG staff completed
    significant audits, evaluations, and investigations of Ex-Im Bank programs and operations, while
    laying the groundwork for expanded operations in future periods. The rapid and effective
    development of this office is particularly important in view of the leading role of the Bank in
    responding to the decrease in private sector export funding resulting from the international
    financial crisis.

    The reporting period is highlighted by the following accomplishments:

            a) Medium Term Program, Information Technology Audit;
            b) Evaluation Report of Ex-Im Bank’s response to the Financial Crisis;
            c) First arrests conducted by this office.

    I am very proud of the fine organizational work of the OIG leadership team of Jean Smith,
    Assistant Inspector General for Audits, Larry Valett, Assistant Inspector General for
    Investigations, and Osvaldo Gratacos, Deputy Inspector General and Counsel, in conceiving and
    then executing the plans that produced the high level of activity and results described in this
    report. I look forward to providing future reports to Congress of the expanding work of this new
    office as it accomplishes the OIG mission within Ex-Im Bank.




    Michael W. Tankersley
    Inspector General
    October 30, 2009




                    811 Vermont Avenue, N.W. Washington, D.C. 20571
                                     OVERVIEW
The Office of Inspector General (OIG) is an independent office within the Export-Import
Bank of the United States (Ex-Im Bank/Bank) that supports Ex-Im Bank's mission and
goals by working to detect and respond to fraud, waste, and abuse involving Ex-Im
Bank programs and personnel and to promote economy and efficiency in Ex-Im Bank’s
operations. The Inspector General Act of 1978 (IG Act) charges the Inspector General
with responsibility for conducting audits, evaluations, inspections, and investigations
and keeping the Chairman of Ex-Im Bank and Congress fully and currently informed
about problems and deficiencies relating to the administration of Bank programs and
operations.

This reporting period represents the first time that this office, initially organized in
August 2007, has fielded its full staff of ten career professionals. We hired four criminal
investigators in February 2009, and in March 2009, we hired a third auditor and an
experienced administrative specialist. Their arrival resulted in a significant increase in
audit, evaluation, and investigative activity, a trend expected to continue in succeeding
reporting periods.

In addition to the audits and investigations described in the following sections of this
report, Ex-Im Bank OIG’s activities during this period included:

    •   Assisting Ex-Im Bank transition to the new leadership team organized by
        Chairman Fred P. Hochberg, who took office in May 2009. The OIG provided
        briefings for the Chairman and other members of senior management regarding
        completed and ongoing audits and evaluations. We also provided summaries of
        our investigative caseload and insights into the common attributes of fraud
        identified during investigations.

    •   Meeting regularly with Ex-Im Bank’s Office of General Counsel staff and Asset
        Management Division to discuss referrals to the OIG of claims and other matters
        where evidence indicating the possibility of fraudulent acts has been identified
        and to coordinate their work in support of OIG investigations.

    •   Evaluating the feasibility of OIG conducting on-site inspections throughout all
        phases of Ex-Im Bank transactions to assess transaction integrity and conformity
        to applicable law and representations made to Ex-Im Bank.

    •   Expanding the responsibilities of the Counsel to the Inspector General to include
        the role of Deputy Inspector General to ensure continuity of leadership when the
        Inspector General steps down in October 2009.

    •   Addressing several matters of common interest with Ex-Im Bank’s Audit
        Committee in a mutually supportive manner intended to be consistent with the



                                  Office of Inspector General – Semiannual Report to Congress   1
        independence of the OIG and a positive relationship with Ex-Im Bank. We also
        met with the contractor selected by the Audit Committee to provide internal audit
        services for Ex-Im Bank.

    •   Developing the full range of written policies required to support the operations of
        the OIG in the areas of strategic goals, audits, investigations, staff performance
        goals and reviews, and general administrative matters.

    •   Participating in monthly meetings with Inspectors General of other agencies with
        responsibility for regulation of the U.S. financial sector to discuss issues of
        common interest, including agency and inspector general responses to the
        international financial crisis.

    •   Serving as the liaison between the Council of Inspectors General on Integrity
        and Efficiency (CIGIE) and the Chief Information Officer (CIO) Council.




2   Office of Inspector General – Semiannual Report to Congress
                          SUMMARY OF ACTIVITIES
As required by the IG Act, presented below is an activity summary of the audits,
evaluations, requests from Congress, hotline complaints, and fraud investigation
referrals addressed by Ex-Im Bank OIG during the six month period ending September
30, 2009.

Audits and Evaluations
We issued one audit report and one evaluation report:

    •   A performance audit assessing the adequacy of information technology (IT)
        systems and support for Ex-Im Bank’s Medium Term Export Credit Programs
        (MT Program); and

    •   An evaluation of Ex-Im Bank’s actions in response to the financial crisis.

At the end of the reporting period, OIG had two reviews in process:

    •   An audit of Ex-Im Bank’s financial statements for fiscal year (FY) 2009; and

    •   A performance audit of Ex-Im Bank’s information security program and practices.

Audit Reports Issued During Period

Medium Term Export Credit Program – Information Technology Systems, Support, and
Governance (OIG-AR-09-05, June 12, 2009).
http://www.exim.gov/oig/documents/MTITauditreportfinal.pdf

An audit of the efficiency and effectiveness of IT support for Ex-Im Bank’s MT programs
found that the IT support, including level of IT investment, had not benefited from
effective governance processes. We determined that a range of significant
enhancements were needed to Ex-Im Bank’s processes for identifying strategic
priorities, setting goals, developing plans to achieve them, supporting business process
and system development, and allocating IT resources in order to improve functional
support for the MT Program and create reasonable accountability for realizing
management’s objectives.

To improve Ex-Im Bank’s IT systems, support, and governance, we recommended that
management:

    •   Develop an IT Strategic Plan that is aligned with the MT Program business plan
        and covers the same time period;




                                  Office of Inspector General – Semiannual Report to Congress   3
    •    Designate a senior manager with responsibility and accountability:
          (i) for management of the IT systems support for the MT Program,
         (ii) to develop detailed business requirements for IT support of the MT Program,
              and
        (iii) to facilitate effective communication and joint development efforts with Ex-Im
              Bank’s Information Management Technology division;

    •   Develops more fully functional support systems and data infrastructure, including
        the design and implementation of embedded system controls;

    •   Develops data repositories that consolidate and organize the key transactional
        data fields, including eliminating existing duplicate files; and

    •   Make improvements to the systems development lifecycle (requirements, testing
        and training).

In the June 2009 report, we stated that management agreed with the reported findings
and had presented proposed actions to address the findings. However, we noted that
the proposed actions were vague in a number of instances and did not fully address all
elements of a recommendation. In addition, management planned to continue existing
systems development practices that were found to be in need of improvement.

In September 2009, management reported that corrective action had been completed
on four of the five recommendations; several instances included actions beyond those
described in management’s initial response to the audit. For the remaining
recommendation, which addressed the need to develop an IT strategic plan,
management stated that it planned to complete action by December 30, 2009, based
upon management’s ongoing work to develop a comprehensive strategic plan for Ex-Im
Bank.

This IT audit was the second in a two-stage review. The OIG engaged an independent
contractor to evaluate Ex-Im Bank’s program performance and IT support of the MT
Program in view of recent adverse economic results of the MT Program and user
complaints regarding slow response times. During the previous semiannual period, we
issued a report on Ex-Im Bank’s program performance entitled Medium Term Export
Credit Program – Credit and Fraud Risk Management and Business Process
Improvement (OIG-AR-09-04, March 30, 2009).
http://www.exim.gov/oig/documents/MT_Program_Business_Process_Final_Audit_Report.pdf

Under the contract for the MT Program performance and IT support audits, the
contractor will perform six and twelve month follow-up reviews of management’s
progress in responding to the recommendations made in the MT Program audits. The
initial follow-up review is tentatively scheduled for January 2010.




4   Office of Inspector General – Semiannual Report to Congress
On-Going Audits

FY 2009 Financial Statement Audit. An independent public accounting firm (IPA),
working under OIG oversight, is performing an audit of Ex-Im Bank’s FY 2009 financial
statements. The IPA is also performing audit follow-up work on the six
recommendations made in the FY 2008 Financial Statement Audit – Management Letter
(OIG-AR-09-03, January 22, 2009).
http://www.exim.gov/oig/documents/fy08financial_statement_audit_managementletter.pdf

Audit work commenced in June 2009. The OIG anticipates the IPA will issue its opinion
on the FY 2009 financial statements in November 2009.

Annual Information Security Audit. The Federal Information Security Management Act
(FISMA) requires an annual independent evaluation of U.S. government agency
information security programs and practices. The OIG contracted with an IPA to
perform the FY 2009 FISMA review of Ex-Im Bank’s systems. The audit includes
assessing Ex-Im Bank’s progress in developing, documenting, and implementing an
agency-wide program to provide security for the information and information systems
that support operations and assets of Ex-Im Bank. The audit also includes reviewing
Ex-Im Bank’s privacy program and the privacy impact assessment process and
performing audit follow-up work on the four recommendations made in the audit report
Fiscal Year 2008 Implementation of the Federal Information Security Management Act
(OIG-AR-09-02, December 30, 2008).
http://www.exim.gov/oig/documents/fy2008implementation_fed_info_security_manag_act.pdf

Due to the sensitive content, we have limited distribution of information security audit
reports.

Audit work commenced in July 2009. The OIG anticipates the IPA to respond to the
Office of Management and Budget reporting requirements on the audit results in
November 2009 and issue an audit report in December 2009.

Evaluation Reports Issued During Period

Export-Import Bank’s Actions in Response to the Financial Crisis – Direct Lending (OIG-
EV-09-02; September 30, 2009).
http://www.exim.gov/oig/documents/Actions_in_Response_to_the_Financial_Crisis.pdf

The OIG conducted an evaluation of actions taken by Ex-Im Bank since October 1,
2008 with the objectives of:

    •   Assessing the demand for direct loans from Ex-Im Bank by U.S. exporters and
        foreign purchasers of U.S. goods as a result of the international financial crisis;




                                     Office of Inspector General – Semiannual Report to Congress   5
    •   Identifying the actions taken by Ex-Im Bank to utilize the liquidity provided by its
        U.S. Treasury funding to fill gaps in response to the international financial crisis;
        and

    •   Identifying conditions that might restrain Ex-Im Bank’s ability to respond to
        increased demand for direct loans and recommend actions to respond to those
        conditions.

Our evaluation showed that demand for direct lending from Ex-Im Bank had increased
significantly since October 1, 2008, and that Ex-Im Bank responded to the international
financial crisis by expanding its direct lending activity, enhancing its products, and
adopting innovative structures to respond to the needs of U.S. exporters. Between
October 1, 2008 and June 30, 2009, the volume of direct loans authorized by Ex-Im
Bank increased to $3.1 billion from $12 million during the same period of the preceding
fiscal year. Total export credit authorizations for the nine months ended June 30, 2009,
were $14.7 billion, compared with $7.7 billion in the prior period.

Additionally, although not part of the direct loan program, Ex-Im Bank modified its
Working Capital Guarantee Program requirements for letters of credit and increased
delegated authority limits to provide additional support to U.S. exporters, including small
businesses.

We concluded that while the above actions were responsive to the international financial
crisis and consistent with Ex-Im Bank’s mission, opportunities existed to further improve
the Bank’s ability to respond to the current and future financial crises in the following
areas:

    •   Management’s ability to monitor and respond to market demand for particular
        services (such as the demand for direct lending during the current financial
        crisis) is limited because Ex-Im Bank does not collect relevant and available data
        in a systematic and comprehensive manner;

    •   Ex-Im Bank does not have a formal policy defining the substantive and
        procedural requirements that must be met to support the adoption of material
        policies, the launch of new products, or material changes in existing products;
        and

    •   Ex-Im Bank does not have a documented plan to guide its response to the
        current financial crisis or other possible economic emergencies that might arise
        in specific locales around the world or more broadly.

In light of limited resources available to the OIG for this evaluation, we examined the
effect of only one policy mandate. This policy, the requirement to use U.S. flag ocean



6   Office of Inspector General – Semiannual Report to Congress
vessels to ship U.S. goods in transactions receiving Ex-Im Bank support, has been cited
by exporters as limiting the effectiveness of Ex-Im Bank support for U.S. exports. Our
evaluation concluded that Ex-Im Bank should improve communications with the U.S.
Maritime Administration of the Department of Transportation (MARAD) and the
understanding of Ex-Im Bank staff and exporters relative to the efficient management of
U.S. flag shipping requirements.

To address a financial crisis, we suggested that Ex-Im Bank:

   •   Develop a systematic and comprehensive approach to collecting and reporting
       data relating to market demand and related factors impacting Ex-Im Bank
       performance.

   •   Adopt a policy for Ex-Im Bank setting forth clear written requirements for
       approving material policies, new export credit products, and material changes in
       existing export credit products.

   •   Develop a plan to guide Ex-Im Bank’s response to financial crises that is
       generally based upon evaluation of its response to the current financial crisis.

   •   Actively work with MARAD to improve the efficiency of U.S. flag ocean vessel
       shipping requirements to minimize any negative impact on Ex-Im Bank support
       for U.S. exports during the international financial crisis.

In its response to our draft report, Ex-Im Bank’s management stated that it was as well
prepared as could be expected to respond to the international financial crisis.
Management agreed that improvements were necessary to Ex-Im Bank’s data gathering
and indicated that it had undertaken a review of available options in light of Ex-Im
Bank’s staffing and financial constraints. Ex-Im Bank is currently reviewing the policy
approval process to be sure consistent procedures exist for modifying or creating
financing products. Management also noted plans to meet with MARAD to further
discussions begun in late 2008 to address the issues noted in the report.

Government Accountability Office (GAO)

The IG Act states that each Inspector General shall give particular regard to the
activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. During this period, the
GAO issued one report related to Ex-Im Bank activities. This report, U.S. AFRICA
TRADE – Options for Congressional Consideration to Improve Textile and Apparel
Sector Competitiveness under the African Growth and Opportunity Act (GAO-09-916,
August 2009) referenced Ex-Im Bank, but did not contain a recommendation for
corrective action by the Bank.




                                 Office of Inspector General – Semiannual Report to Congress   7
GAO conducted this study to provide Congress a range of options for: (1) possible
changes to the African Growth and Opportunity Act (AGOA) or other U.S. trade
preference programs and (2) other measures the U.S. government could take to help
increase investment in and improve competitiveness of sub-Saharan Africa’s (SSA)
textile and apparel inputs production.

Possible measures applicable to Ex-Im Bank to improve support of SSA textile and
apparel sector identified in the report were:

    •   Increase the Bank’s lending and guarantees to facilitate investment in the SSA
        textile and apparel sector; and

    •   Increase flexibility of Overseas Private Investment Corporation, Ex-Im Bank, and
        U.S. Trade and Development Agency requirements to address local content and
        economic effects restrictions for AGOA countries.




8   Office of Inspector General – Semiannual Report to Congress
Audit Follow-Up

Recommended actions remain open on one audit reported in the previous Semiannual
Report:

Medium Term Export Credit Program – Credit and Fraud Risk Management and
Business Process Improvement (OIG-AR-09-04, March 30, 2009).
http://www.exim.gov/oig/documents/MT_Program_Business_Process_Final_Audit_Report.pdf

When this audit report was issued, management committed to act upon six of the eight
recommendations. In September 2009, management reported that action has been
undertaken to address each of the findings. Of the eight recommendations,
management stated that it completed action on one recommendation and was either
making substantial progress in implementing the specific recommendations or pursuing
alternatives that Ex-Im Bank believes will effectively address the report's findings.

The remaining seven open recommendations are:

   1. Require as part of its credit underwriting due-diligence on-site inspections and
      appraisals of equipment being exported as well as bank/brokerage statements of
      obligors and guarantors for MT transactions;

   2. Institute a defined and standardized process for lenders to report payment
      history; obtain a quantitative analyst with experience in the design and
      implementation of pricing, risk management and credit analysis tools and
      models; payment frequency should be consistent with local country norms which,
      in most instances, require monthly payments;

   3. Institute a formal lender oversight function;

   4. Revamp Ex-Im Bank’s exposure fee pricing structure for non-sovereign MT
      Program transactions to more effectively account for transaction-level risk;

   5. Evaluate the impact of implementing a greater degree of risk sharing or other
      incentives for non-sovereign transactions;

   6. Develop a definition of a complete application by defining documentation
      requirements at initial application and establish dedicated processing teams for
      processing first-time lenders as well as those transactions considered highly
      complex or risky; and

   7. Develop a strategic plan for the MT Program.




                                   Office of Inspector General – Semiannual Report to Congress   9
INVESTIGATIONS AND HOTLINE ACTIVITY

Milestones and Noteworthy Accomplishments

This reporting period is the first completed at the full staffing level of five Special Agents
(including the Assistant Inspector General for Investigations). We initiated a series of
law enforcement operations and continued to build the infrastructure necessary to
support the full range of investigative activity required to address the fraud schemes that
have impacted Ex-Im Bank. These actions included:

    •   Achieving $900,000 in cost savings for Ex-Im Bank stemming from referrals of
        active investigative information.

    •   Referring 17 investigative matters to the Department of Justice for prosecutive
        decision.

    •   Expanding the fraud investigations case portfolio to 369 individual claims paid by
        Ex-Im Bank, representing more than $300 million.

    •   Obtaining five federal arrest warrants, two of which were against foreign
        nationals. All of these warrants related to investigations commenced during
        calendar year 2009.

    •   Three arrests were made by Ex-Im OIG Special Agents pursuant to the warrants
        referenced above.

    •   Executing a federal search warrant with support from the U.S. Postal Inspection
        Service.

    •   Referring active investigative information to Ex-Im Bank management
        concerning potential fraud and funds at risk to support enhanced due diligence
        efforts in approving, processing, and monitoring export credit guarantees and
        insurance policies.

    •   Referring investigative information to Ex-Im Bank management for enhanced
        collection efforts on policies and guarantees that have defaulted due to
        fraudulent activity.

    •   Developing joint investigative operations and partnerships with the Federal
        Bureau of Investigation, Internal Revenue Service-Criminal Investigations
        Division, U.S. Postal Inspection Service, U.S. Immigration and Customs
        Enforcement, and U.S. Customs and Border Protection.




10 Office of Inspector General – Semiannual Report to Congress
     •    Completing advanced training to enhance investigative effectiveness in such
          areas as international banking and money laundering, Ex-Im Bank programs,
          export trade, finance and insurance practices, and legal updates related to
          general criminal law and rules applicable to arrest, searches, and seizures.

     •    Developing and implementing an automated internal case management
          database for tracking and reporting investigative operations, data, and statistics.
          This fully functional system was developed internally using open-source tools
          and replicates the performance of systems provided by private sector vendors
          costing $10,000 or more.

     •    Completing the procurement, implementation, and use of strategic investigative
          resources, including advanced analytical software for financial fraud
          investigations, export and shipping record databases, and financial and law
          enforcement intelligence resources.

Summary of Investigations

The Ex-Im Bank OIG Office of Investigations evaluates all reports of possible fraud or
illegality affecting Ex-Im Bank or its programs and activities. Such reports are received
from a variety of sources, such as Ex-Im Bank employees, Office of General Counsel,
participants in Bank transactions, other government agencies, and the OIG Hotline.
Evaluations that identify reasonable indications of possible fraud or illegality result in an
investigation. These investigations are summarized in the table below.

 Summary of Investigative Activity                       Investigations            No. of         Net Amount
 During Period                                               Totals               Claims*         Of Claims**
 Investigations open as of April 1, 2009                       35                   241           $227,596,564
 Opened during period                                           9                   134            $78,903,850
 Closed during period                                          (9)                  (6)             ($496,918)
 Investigations open as of September
                                                                  35                 369          $306,003,496
 30, 2009
*The number of claims subject to investigation. Not all investigations involve claims paid by Ex-Im Bank. The referral
of a claim to the OIG for investigation does not establish the existence of fraud, and not all claims included in a case
under investigation are necessarily fraudulent until proven so by evidence developed in the investigation. The
number of claims may vary during the course of an investigation as facts and findings develop.

**The net amount of claims may vary between reporting periods as post-default interest accrues and collection
expenses are incurred and as the Bank obtains recoveries of funds through its civil collection efforts. Accordingly, the
net dollar amount of claims reported is subject to fluctuation between reporting periods.

The following table and chart break down the 369 claims that are currently the focus of
open investigations by the fiscal years during which the transactions were authorized
(which would generally be the year in which any associated fraud was committed) and
by country. The period of time between the dates a transaction is authorized and any




                                             Office of Inspector General – Semiannual Report to Congress 11
claim resulting from fraudulent activity can vary significantly from a few months to many
years.

 Year Transaction Authorized                            No. of Claims*              Net Amount Of Claims**
      2000 and earlier                                         18                          $8,296,489
      2001                                                     24                         $26,974,479
      2002                                                     42                         $19,121,926
      2003                                                     78                         $54,973,272
      2004                                                    130                        $152,436,401
      2005                                                     35                         $18,084,724
      2006                                                     23                         $17,020,845
      2007                                                     15                          $4,964,836
      2008                                                      4                          $4,130,524
      TOTAL                                                   369                        $306,003,496
*The number of claims subject to investigation. Not all investigations involve claims paid by Ex-Im Bank. The referral
of a claim to the OIG for investigation does not establish the existence of fraud, and not all claims included in a case
under investigation are necessarily fraudulent until proven to be so by evidence developed in the investigation. The
number of claims may vary during the course of an investigation as facts and findings develop.

**The net amount of claims may vary between reporting periods as post-default interest accrues and collection
expenses are incurred and as the Bank obtains recoveries of funds through its civil collection efforts. Accordingly, the
net dollar amount of claims reported is subject to fluctuation between reporting periods.


                                         Claims Under Investigation: By Country
                               60.00%

                               50.00%
          Percent of Claims*




                               40.00%

                               30.00%

                               20.00%

                               10.00%

                               0.00%
                                                               M
                                                               M




                                                               M
                                                               M




                                                               K


                                                                                             er
                                                              M


                                                             7M




                                                          76
                                                            .6


                                                            .8




                                                            .4
                                                            .4




                                                                                           th
                                                           .9


                                                         4.


                                                        $8


                                                        $2


                                                        $3


                                                        $2
                                                        06




                                                        $1



                                                                                          O
                                                      $7
                                                    $2




                                                      a


                                                    ua




                                                     p.
                                                      u




                                                     a
                                                   bi




                                                   er




                                                   al
                                                    s




                                                 Re
                                                 ug
                                                 ne
                                                  o




                                                 m




                                                 P




                                                 m
                                  ic




                                               lo


                                              ra
                                              pi




                                              te
                                               n
                               ex




                                          Co




                                          ica
                                         il ip




                                          ca




                                         ua
                               M




                                       Ni
                                      Ph




                                       in


                                       G
                                      m
                                   Do




                                                   Country and Total Claim Amount


         *Percentage is by number of claims, not dollar amount.




12 Office of Inspector General – Semiannual Report to Congress
Summary of Investigative Results

Considerable time is generally required to develop investigations into prosecutable
cases and then into plea agreements and convictions that result in the types of
remedies described below. While we developed several cases to the point of obtaining
arrest warrants and completing arrests of the targets during this reporting period, it is
generally expected that most of our investigations will require at least a year to develop
fully.

 Semiannual Period
                                            Ex-Im OIG           Joint
 (April 1, 2009 – Sept 30, 2009)                                                  Totals
                                              Only         Investigations*
 Results of Prosecutive Actions
 Matters referred to Dept. of Justice           14                 3                 17
 Criminal
                                                 0                 0                 0
 indictments/information/complaints
 Convictions/settlements/judgments               0                 0                 0
 Prison time (including time
                                                 0                 0                 0
 suspended)
 Probation                                      0                 0                  0
 Community service                              0                 0                  0
 Fines and recoveries (including civil)         0                 0                  0
                                            Ex-Im OIG           Joint
 Results of Administrative Actions                                                Totals
                                              Only         Investigations*
 Suspensions                                    0                 0                  0
 Debarments                                     0                 0                  0
 Compliance agreements                          0                 0                  0
 Other administrative/disciplinary
                                                 0                 0                 0
 actions
 Administrative recoveries,
                                            $900,000               0             $900,000
 repayments, cost savings
* With another federal agency

Hotline Activity

The Ex-Im OIG maintains a Hotline reachable by telephone, email, or mail to receive
reports of fraud, waste, and abuse in Ex-Im Bank programs and operations. Hotline
reports are evaluated by our investigative team and based on the available evidence
may result in the initiation of an investigation, referral to other law enforcement
authorities having jurisdiction, or referral to management for administrative action.

The OIG received five Hotline reports during the reporting period. One was referred for
investigation, two are actively under review, and two were addressed without further
referral. One pending hotline complaint that had been under review as of the last
reporting period was also referred for investigation during this period.



                                  Office of Inspector General – Semiannual Report to Congress 13
Criminals Use an Array of Methods to Defraud Ex-Im Bank Loan Guarantee and
Export Credit Insurance Programs

Two of Ex-Im Bank’s key programs - the loan guarantee program and the export credit
insurance program – have been particularly susceptible to fraud schemes by foreign
borrowers, U.S. based exporters, and other transaction participants, including deal
brokers commonly referred to as “agents” or “finders”. The deal brokers assist in
arranging the transactions and shipments. These two programs account for the majority
of investigations currently underway. Each program offers different features to Ex-Im
Bank customers, but criminal activity exploits certain processes within the programs in
order to induce the Bank to approve fraudulent loan guarantees or insurance coverage.

LOAN GUARANTEE PROGRAM. Ex-Im Bank assists exporters by guaranteeing term
financing from a commercial lender to creditworthy international buyers, both private
and public sector, for purchases of U.S. goods and services. Ex-Im Bank’s guarantee
of a lender’s loan to an international buyer is used to finance purchases of American
goods and services. Criminals have exploited this program by submitting false financial
statements of foreign borrowers in order to induce Ex-Im Bank to provide guarantee
coverage for a loan for which borrowers might otherwise be ineligible. After the loan is
approved, criminals have submitted false documentation to the guaranteed lender and
Ex-Im Bank regarding the shipment, nature, or quantity of the U.S. goods allegedly
being exported.

An example of successful investigative efforts within the loan guarantee program during
the reporting period is the following:

     •   COLOMBIAN BORROWER ARRESTED BY SPECIAL AGENTS OF EX-IM
         BANK OIG. On May 4, 2009, Ex-Im Bank OIG Special Agents arrested a
         Colombian borrower at the Miami International Airport, pursuant to an arrest
         warrant for the borrower’s role in a broader scheme to defraud Ex-Im Bank.
         The investigation concerns a scheme in which various borrowers, exporters,
         and a deal broker or “agent” allegedly schemed to prepare false financial
         statements, loan applications, and shipping records that Ex-Im Bank relied upon
         to issue loan guarantees for the export of certain goods represented in the loan
         application. The loan proceeds were then allegedly embezzled and distributed
         to various parties rather than used for the purchase and shipment of those
         goods that were approved and guaranteed by Ex-Im Bank. The foreign
         borrower then defaulted on the loan, causing Ex-Im Bank to pay the loan
         guarantee. The arrest is part of an ongoing investigation concerning suspected
         fraud in nearly $8.2 million in loan guarantees and other insurance claims paid
         by Ex-Im Bank.

EXPORT CREDIT INSURANCE. This program offers protection in the form of several
different insurance policy types to U.S. exporters and their lenders against non-payment



14 Office of Inspector General – Semiannual Report to Congress
by foreign buyers due to commercial and political risks. Export credit insurance allows
exporters to increase export sales by limiting international repayment risk, offering credit
to international buyers, and enabling exporters to access working capital funds. One
fraudulent scheme to exploit this program involves the falsification of shipping records to
convince Ex-Im Bank that the described goods have been shipped when in fact they
have not.

Examples of successful investigative efforts within the Export Credit Insurance program
during the reporting period include the following:

    •   MEXICAN BORROWER ARRESTED BY SPECIAL AGENTS OF EX-IM BANK
        OIG. On September 8, 2009, Ex-Im Bank OIG Special Agents arrested a
        Mexican borrower in El Paso, Texas, pursuant to a criminal complaint alleging
        the borrower’s involvement in a broader scheme to defraud Ex-Im Bank. The
        investigation concerns a scheme in which the exporter, borrower, and various
        associates allegedly conspired to defraud Ex-Im Bank by falsifying purchase
        orders, shipping records, and export certifications purporting that certain goods
        had been purchased and shipped to Mexico when in fact they were not. The
        subjects allegedly embezzled the loan proceeds, distributed cash to the
        Mexican borrower who falsified equipment receipts attesting to the shipment
        and delivery of goods, and then subsequently defaulted on the loan causing Ex-
        Im Bank to pay the insurance claim. The arrest is part of an ongoing
        investigation concerning suspected fraud in nearly $4.81 million in insurance
        claims paid by Ex-Im Bank.

    •   EXPORTER ARRESTED FOR ROLE IN EX-IM BANK SCHEME. In the same
        case, on August 20, 2009, the United States Marshal Service arrested an
        exporter in El Paso, Texas, pursuant to an arrest warrant obtained by Special
        Agents of the Ex-Im OIG for the exporter’s role in a broader scheme to defraud
        Ex-Im Bank.

    •   FEDERAL SEARCH WARRANT EXECUTED ON MIAMI EXPORTER. On
        April 30, 2009, Ex-Im Bank OIG Special Agents and Inspectors from the U.S.
        Postal Inspection Service executed a federal search warrant at the premises of
        a U.S. based exporter located in Miami, Florida, based on probable cause that
        the exporter was involved in a scheme to defraud Ex-Im Bank in transactions
        insured by Ex-Im Bank. The investigation concerns a scheme in which the
        exporter and other associates allegedly obtained Ex-Im Bank insurance and
        loan guarantees on several transactions; and rather than purchasing and
        shipping of the goods that were insured and guaranteed by Ex-Im Bank,
        allegedly embezzled and distributed the money to various parties. Several
        foreign borrowers then defaulted on the loans, causing Ex-Im Bank to pay the
        insurance and loan guarantees. The search warrant is part of an ongoing




                                  Office of Inspector General – Semiannual Report to Congress 15
        investigation concerning suspected fraud in nearly $20 million in claim
        payments and transactions with Ex-Im Bank.

OIG Shares Investigative Intelligence with Ex-Im Bank to Help Protect Funds at
Risk

To the extent permissible and within the confines and limitations of an investigation, the
OIG works collaboratively to share investigative intelligence with Ex-Im Bank Office of
General Counsel, Credit and Risk Management Division, and Asset Management
Division to help identify potential and suspected fraudulent activity within Ex-Im Bank
transactions and to protect taxpayer funds at risk.

During this reporting period, the OIG communicated with Ex-Im Bank management to
enhance the monitoring of existing transactions and due diligence review of proposed
transactions based on developed investigative leads. Additionally, with concurrence by
the Department of Justice, we provided Ex-Im Bank with active law enforcement
intelligence on the identification and location of previously unknown foreign assets and
property to aid in the Bank’s civil collection efforts with respect to defaulted loans.

In another example of support of Ex-Im Bank operations, we shared active law
enforcement intelligence with the Bank concerning the involvement of a foreign
borrower engaged in suspected criminal activity. During the investigation, it was found
that a $900,000 short-term insurance policy covering this borrower was eligible for
renewal. Because of this shared information, Ex-Im Bank canceled this policy, resulting
in a cost savings of $900,000.

These examples of information sharing underscore the OIG objective to expeditiously
protect funds at risk during ongoing criminal investigations and to enhance Ex-Im
Bank’s existing capabilities in monitoring civil collection efforts involving transactions in
which fraud is uncovered.

Investigative Operations Reveal Opportunities to Protect the Interests and
Integrity of Ex-Im Bank

In conducting investigative operations or through the receipt of complaints, the OIG has
become aware of private parties in the U.S. or abroad seeking business opportunities or
collection of debts by misrepresenting their relationships with Ex-Im Bank or misusing
official government seals, logos, or letterheads in their efforts to advertise or exploit their
relationship with Ex-Im Bank. Activities involving suspected fraud or other criminal
actions have also identified and helped stop inappropriate representations or use of
official government identifiers that are not criminal per se but involve individuals seeking
to impress prospective clients or to enhance collection efforts. As an example,
investigative activity during this reporting period found that a lender had been using the
government seal of Ex-Im Bank on its invoice to a customer in an effort to collect an



16 Office of Inspector General – Semiannual Report to Congress
amount due. This information was provided to Ex-Im Bank Office of General Counsel,
which issued a cease and desist notification to the lender.

OIG Promotes Suspension, Debarment, and Compliance Agreements

OIG investigative operations can also protect the government’s interest by supporting
the suspension and debarment of parties from future transactions with the U.S.
government. Suspension and debarment proceedings are based on the presentation of
summary evidence of wrongdoing by an individual or organization before an agency
debarment official, typically a member of an agency’s senior management. No specific
referrals for suspension and debarment were made during this reporting period, but
discussions continue with Ex-Im Bank Office of General Counsel regarding the use of
these proceedings for parties indicted or convicted for fraudulent activity.

The OIG and the Office of General Counsel have also discussed the use of compliance
agreements as a means of improving oversight and increasing the accountability of
individuals whose transactions have encountered significant rates of claims or fraud but
do not involve indications of fraudulent activity. In one instance, Ex-Im Bank initiated a
compliance agreement process during the reporting period.

As investigative efforts progress, the OIG intends to work with Ex-Im Bank Office of
General Counsel and management to pursue these sorts of administrative opportunities
to protect the interests of the government concurrently with criminal investigations and
prosecutions.




                                  Office of Inspector General – Semiannual Report to Congress 17
 CROSS-REFERENCE TO REPORTING REQUIREMENTS
        OF THE INSPECTOR GENERAL ACT
Set forth below are cross-references of the reporting requirements prescribed by the
identified sections of the IG Act to the specific pages in this Semiannual Report where
they are addressed.


  CITATION            REPORTING REQUIREMENTS                                     PAGE
  Section 4(a)(2)     Review of legislation and regulations                        None

  Section 5(a)(1)     Significant problems, abuses and deficiencies                None

  Section 5(a)(2)     Recommendations with respect to significant problems,        None
                      abuses and deficiencies

  Section 5(a)(3)     Prior significant recommendations on which corrective               9
                      action has not been completed

  Section 5(a)(4)     Matters referred to prosecutorial authorities                   13

  Section 5(a)(5)     Summary of instances in which information was refused        None

  Section 5(a)(6)     List of audit reports by subject matter, showing dollar      None
                      value of questioned costs and recommendations that
                      funds be put to better use

  Section 5(a)(7)     Summary of each particularly significant report              3 to 7

  Section 5(a)(8)     Statistical table showing number of reports and dollar       None
                      value of questioned costs

  Section 5(a)(9)     Statistical table showing number of reports and dollar       None
                      value of recommendations that funds be put to better
                      use

  Section 5(a)(10)    Summary of each audit issued before this reporting           None
                      period for which no management decision was made by
                      end of reporting period

  Section 5(a)(11)    Significant revised management decisions                     None

  Section 5(a)(12)    Significant management decisions with which the              None
                      Inspector General disagrees
                      SPECTO
                 IN            R
             F                     G
         O                             E



     E




                                       N
 C




                                           E
FI




                                           RA
OF




                                               L
